Weaknesses in the
Smithsonian Tropical
Research Institute’s
Financial Management
Require Prompt Attention




Office of the Inspector General
Report Number A-13-01
October 29, 2013
    	




	
SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL



                                 INTRODUCTION 


This report presents the results of our audit of the Smithsonian Tropical Research
Institute’s (STRI) financial operations. Located in the Republic of Panama
(Panama), STRI is a research center dedicated to understanding biological diversity
and its relevance to human welfare. It has marine laboratories on both coasts of
Panama, giving access to two different ocean environments.

STRI is the only Smithsonian organization based outside of the United States. Its
geographically remote location, and the unique demands of operating in another
country, present challenges for the Smithsonian to oversee and manage STRI’s
operations. Our objective in this audit was to evaluate high risk areas of STRI’s
financial operations, including cash operations, accounts receivable transactions,
and procurement activities.

Cash Operations

STRI receives cash from a number of sources such as visiting researchers’ fees,
retail operations, and donations. Cash receipt and disbursement operations are
conducted at multiple locations throughout Panama. In addition, STRI’s deposit and
disbursement transactions are conducted within three different accounts at two
financial institutions.

Accounts Receivable

Visiting scientists incur expenses while conducting their research at the various
STRI locations for items such as lodging, meals, scientific equipment, and boat
transportation. Scientists generally pay these expenses during their visit or later
when they receive reimbursement from a sponsoring entity. STRI sets up accounts
receivable to record amounts due to STRI from the scientists for expenses they
incur.

Procurement

STRI purchases goods and services using the following four methods: (1) petty
cash, (2) purchase card, (3) purchase order, and (4) contracting. Both STRI’s
comptroller and procurement manager can approve purchases up to $100,000. For
purchases larger than $100,000, STRI must get approval from the Office of
Contracting in Washington, D.C.

During the course of our audit, we interviewed STRI management and tested
controls related to cash, accounts receivable, and procurement. In addition, we
reviewed all fiscal year 2012 bank account reconciliations, and samples of accounts
receivable and purchase orders from multiple years.




                                         1

SMITHSONIAN INSTITUTION 	                           OFFICE OF THE INSPECTOR GENERAL



A detailed description of our objectives, scope, and methodology is included in
Appendix A.

                                RESULTS IN BRIEF

STRI needs to improve its financial operations in all areas we reviewed -- bank
account reconciliations, accounts receivable, and procurement. Set forth below are
our findings in these three areas and the recommended actions to address the
weaknesses.

Bank Account Reconciliations

We determined that STRI is not performing bank account reconciliations or posting
cash transactions to the Smithsonian’s official accounting records (general ledger)
timely. Also, STRI’s bank account reconciliations were not complete. In addition,
STRI did not have written policies and procedures, which contributed to its bank
account reconciliation issues.

We recommended that STRI management implement the following improvements
to bank account reconciliations:

   •	 Develop and implement written policies and procedures over bank account
      reconciliations to increase control over cash.

   •	 Reconcile bank accounts promptly and resolve reconciling differences.

   •	 Post cash transactions to the general ledger timely.

   •	 Continue to reconcile the third party processor payroll report to the

      disbursement file. 


Accounts Receivable

STRI’s accounts receivable does not reconcile to the general ledger by
approximately $44,000. Also, STRI had approximately $50,000 of accounts
receivable balances that were more than 90 days delinquent as of fiscal year-end
2012. STRI did not have a written policy that outlined procedures to collect the
delinquent balances.

We recommended that STRI management implement the following improvements
to its accounts receivable controls:

   •	 Develop and implement written accounts receivable collection policies and
      procedures.




                                          2

SMITHSONIAN INSTITUTION 	                          OFFICE OF THE INSPECTOR GENERAL



   •	 Review the current accounts receivable and correct the accounts in the point-
      of-sale (POS) system.

   •	 Reconcile the accounts receivable from the POS system to the general ledger.

   •	 Automate the recording of all account receivables from the subsidiary ledger
      to the general ledger.

Procurements

During our testing of purchase orders, we reviewed one purchase order where STRI
management did not ensure that the Office of Facilities Engineering and Operations
(OFEO) participated in the design stage of a construction project. We also reviewed
another purchase where STRI management had not properly controlled the assets
after the purchase was complete.

We recommended for future procurements that STRI management:

   •	 Collaborate with OFEO to review the design of facility improvements.

   •	 Assign to a staff member the responsibility for purchased items.

   •	 Not use STRI facilities to house private property.

Succession Plan

We found that STRI has filled two key directorates with outside consultants, which
increases the risk of loss of continuity of business operations and management
stability.

We recommended that STRI management develop a succession plan for these two
key positions that are currently being outsourced to consultants.

                               RESULTS OF AUDIT

Bank Account Reconciliation Internal Controls Need to be Improved

STRI uses three bank accounts to handle cash transactions: operating, payroll, and
United States vendor disbursement. We found that STRI must improve the
timeliness of its bank account reconciliations and effectively resolve reconciling
differences. Also, STRI must ensure segregation of duties over the payroll bank
account reconciliations.

Bank account reconciliations are a comparison between an organization’s bank
balances recorded in its general ledger and the balances reported on the bank
statement. Normally, these balances do not agree because of timing differences



                                          3

SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL



between the recording of activity by the bank and its account holder. For example,
a deposit may be recorded by the organization in its accounting records but not yet
recorded by the bank. This results in a reconciling difference. Bank account
reconciliations are important to control cash because they help to detect errors on
the part of the bank and the organization when recording transactions in accounts.

Reconciliation Timeliness

STRI accounting staff were not reconciling all three of their bank accounts timely
during fiscal year 2012. They took longer than a month to complete 21 of the 36
reconciliations we tested. Moreover, staff took longer than 2 months to complete 12
of those 21 reconciliations.

Reconciling Differences

STRI staff were not reconciling their operating and payroll bank accounts
completely. Of the 24 reconciliations they prepared for fiscal year 2012, STRI
accounting staff could not identify nor resolve reconciling differences on 22 of them.
The reconciliations had differences ranging from under $100 to over $5,000. In
addition, STRI had reconciling differences that they had identified, but had not
corrected.

For example, STRI did not address multiple reconciling differences, the largest of
which was $125,000, for up to 3 months on its operating bank account
reconciliation. Also, STRI did not address more than $50,000 of reconciling
differences on its payroll bank account reconciliation over a 3-month period.

At the end of fiscal year 2012, STRI’s accounting staff caused another large
reconciling difference totaling more than $100,000 by recording payments for
salaries in the general ledger prior to the money being disbursed from the bank.
According to generally accepted accounting principles, instead of reducing the cash
balance in the general ledger, accounting staff should have created a liability to
represent the amount STRI owed employees for salaries earned but not yet paid.

Segregation of Duties for Reconciliation

During fiscal year 2012, STRI disbursed more than $8 million to more than 350
employees without properly segregating the following duties: review of payroll bank
account reconciliation, maintenance of payroll records, and disbursement of
employees’ pay. For instance, an employee in the accounting department was
allowed to perform the following incompatible duties: coordinate payroll changes
with STRI’s third party payroll processor, forward the payroll report to the Office of
the Comptroller (OC), and review the payroll bank account reconciliation. Although
the employee reviewed the reconciliations, there were often unidentified reconciling
differences on the payroll bank reconciliation.




                                           4

SMITHSONIAN INSTITUTION 	                          OFFICE OF THE INSPECTOR GENERAL



STRI’s failure to separate these duties could allow the employee to misappropriate
cash by adding a fictitious individual or increasing the pay of another employee by
altering the payroll records. Then, the employee could mask the theft by labeling
the shortfall as an unidentified reconciling difference on the payroll bank
reconciliation.

The employee periodically altered the payroll report from STRI’s third party payroll
processor rather than contacting the third party processor to correct the payroll
report. By correcting minor mistakes, typically less than $100, such as inaccurate
amounts of overtime worked, the employee created unidentified reconciling
differences.

Smithsonian Directive (SD) 310, Financial Reporting and Risk Management Internal
Controls, requires directors of units to implement and execute all internal controls
as they pertain to unit operations. According to the Smithsonian Comptroller, bank
reconciliation internal controls include reconciling and posting transactions to the
general ledger promptly. In addition, the Smithsonian Comptroller provided STRI
management with written guidance that bank account reconciliations should be
performed monthly. Performing timely reconciliations reduces the risk of
misappropriation of assets.

SD 310 also requires directors of units to grant and delegate financial authority
carefully, while maintaining the proper segregation of duties. Lastly, SD 310
describes segregation of duties as an example of an important control activity.
Segregation of duties reduces the risk of asset misappropriation by theft or fraud.

The issues we found related to bank account reconciliations were due to the
following:

      •	 STRI lacked written procedures to perform reconciliations and a director
         to oversee the Finance and Administration department during the majority
         of fiscal year 2012.

      •	 STRI’s accounting staff developed lax bank reconciliation practices that
         management did not correct. In addition, STRI lost key accounting
         personnel in May 2012, who have not been replaced.

      •	 STRI deposited and disbursed cash from its bank accounts without
         promptly recording these amounts in the general ledger.

      •	 STRI delegated responsibility for managing the payroll activities to one
         individual within the accounting department.




                                          5

SMITHSONIAN INSTITUTION 	                            OFFICE OF THE INSPECTOR GENERAL



      •	 STRI’s third party payroll processor’s disbursement report frequently
         contained errors in the amounts to be disbursed to employees. Instead of
         notifying the third party processor of these errors, an accounting
         employee changed the disbursement file directly.

STRI’s poor internal control environment contributed to lax oversight over cash.
Because STRI accounting staff do not promptly reconcile bank accounts, do not
timely record cash receipts and disbursements, and cannot identify reconciling
differences, they may not detect potential losses of cash.

Further, because a STRI employee altered the disbursement file from the third
party contractor, the bank account reconciliation was more difficult to perform and
there were unidentified reconciling items. While this lack of segregation of duties
increased the potential for theft of cash to occur through the payroll system, none
came to our attention during our review.

As a result of a recommendation by OC, STRI implemented internal controls that
improved segregation of duties and reconciliation of the payroll account after April
2012. STRI management also reassigned payroll maintenance duties from
accounting to human resources staff and instituted supervisory review of changes
to the third party payroll records. The accounting department now reconciles the
disbursement file used to pay employees against the third party payroll processor’s
report to ensure that any changes made have been authorized by the human
resources staff.

Recommendations

For more effective control over cash operations, we recommend that the Director of
STRI ensure that the accounting department:

   1. Develops and implements written policies and procedures over bank account
      reconciliations with the assistance of the Office of the Chief Financial Officer.

   2. Reconciles bank accounts monthly and that reconciling differences are fully
      researched and resolved.

   3. Posts cash transactions, such as receipts and disbursements, to the general
      ledger by the end of each month.

   4. Continues to reconcile each bi-weekly third party processor payroll report to
      the disbursement file and ensures that the reconciliation is reviewed by a
      supervisor.




                                           6

SMITHSONIAN INSTITUTION 	                             OFFICE OF THE INSPECTOR GENERAL



STRI Needs to Reconcile its Accounts Receivable from Visitors and Improve
its Collection Activities

Accounts Receivable Reconciliation

STRI uses a POS system to monitor scientists’ repayments of their obligations to
STRI for expenses such as lodging, meals, scientific equipment, and boat
transportation. The transaction detail in the POS system provides the basis for both
the general ledger balance and the amounts scientists owe STRI. Then, STRI
uploads entries from the POS system periodically to record accounts receivable
activity in the general ledger, which is the Smithsonian’s official accounting record.

STRI has two categories of accounts receivable in its POS system: one is for
scientists that incur expenses at its facility on Barro Colorado Island (BCI), and the
other is for scientists that incur expenses at the other locations. STRI must account
for receivables incurred at its BCI facility separately from the other locations
because of a federal requirement that the fees charged to visiting scientists be
deposited in trust for the support of the island facility.

We found that STRI needs to improve management of accounts receivable for
visiting scientists’ expenses such as lodging, meals, and supplies. STRI’s staff have
been unable to reconcile its accounts receivable to the general ledger, which is
important to ensure the accuracy of STRI’s financial information.

As of September 30, 2012, STRI had a general ledger accounts receivable balance
of approximately $45,000. However, the POS system had an accounts receivable
balance of approximately $89,000, a difference of $44,000.

STRI identified some of the differences as follows:

    •	 Approximately $25,000 of entries recorded in the POS system were not
       uploaded into the general ledger;

    •	 Approximately $14,000 in late fees recorded in the POS system were not
       uploaded into the general ledger; and

    •	 Approximately $2,000 of duplicate entries were recorded in the POS system.

However, STRI had a remaining unidentified difference of approximately $3,000,
which while small in comparison to the overall balance in the POS system, still
demonstrates that STRI lacks sufficient thoroughness in its reconciliation process.

Collection Activities

During fiscal year 2012, STRI collected approximately $100,000 in delinquent
accounts. However, some of the visiting scientists still had 90-day delinquent



                                          7

SMITHSONIAN INSTITUTION 	                            OFFICE OF THE INSPECTOR GENERAL



accounts totaling approximately $50,000 as of fiscal year-end 2012. Even several
employees of STRI had 90-day delinquent accounts.

Moreover, STRI management has not implemented a written collection policy, as
prescribed by SD 301, Financial Management Accounting Practices and Procedures,
to establish standards for setting credit limits and to follow up on unpaid charges.

SD 301 states that Smithsonian unit directors are responsible for the effective
management of accounts receivable including reviewing outstanding balances for
uncollectible accounts. Additionally, STRI has the primary responsibility to perform
the monthly reconciliation in coordination with its headquarters office liaison, in OC,
which was renamed the Office of Finance and Accounting in June 2013. OC was
responsible for verifying that the monthly accounts receivable reconciliation was
performed by the appropriate party. The units are required to have written policies
regarding how they extend credit and procedures to conduct timely and systematic
follow-up collection efforts on unpaid accounts.

STRI’s mismanagement of accounts receivable results in the following:

   •	 Management does not have an accurate cash flow analysis to support funding
      needs for STRI’s scientific experiments.

   •	 An increase in the risk of loss from delinquent accounts and a potential of
      lost funding to support operational goals.

   •	 Because the POS system was not uploading into the general ledger properly,
      STRI staff could not separate the BCI receivable activity from the other
      receivables. In addition, STRI accounting staff had to create manual journal
      entries to upload BCI receivable activity into the general ledger. Manually
      uploading the entries is inefficient and may result in additional errors. In fact,
      during the audit of the Smithsonian’s financial statements, the independent
      auditor found instances where STRI’s accounting staff made manual journal
      entry errors.

   •	 In addition, some of the scientists’ accounts in the POS system have negative
      balances, which indicate an unusual situation where STRI owes the scientist
      money.




                                           8

SMITHSONIAN INSTITUTION                             OFFICE OF THE INSPECTOR GENERAL



Recommendations

To strengthen controls over accounts receivable, we recommend that the Director
of STRI:

   5. Develop and implement written accounts receivable and collection policies
      and procedures that include parameters for extending credit to scientists,
      guidance on following up with delinquent parties, and criteria for determining
      when to write-off delinquent accounts after collection efforts have failed.
      Submit the revised policies to the Office of Finance and Accounting, as
      required by the Smithsonian Financial Management Accounting Policies and
      Procedures Handbook.

   6. Assign responsibility to review the current accounts receivable and correct
      the accounts in the POS system to record the accurate amounts.

   7. Assign responsibility to reconcile the accounts receivable from the POS
      system to its general ledger account monthly and ensure that a managerial
      review process is established.

   8. Assign responsibility to implement an automated method to accurately record
      the BCI accounts receivable from the subsidiary ledger to the general ledger.

Unusual Procurements Require Greater Attention

During our testing of purchase orders, we did not find any significant deviations
from procurement policy or systemic problems, with the following two exceptions
that we detail below. We reviewed one purchase order for approximately $10,000
for which STRI staff did not ensure that OFEO participated in the review of a lab
building design as mandated by SD 410, Facility Construction and Improvement
Projects. We also reviewed another purchase for approximately $10,000 in which
STRI staff had not properly controlled the assets after the purchase was complete,
as required by SD 315, Personal Property Management.

OFEO Design Involvement

During fiscal year 2012, in Bocas del Toro, STRI started a construction project that
converted a 40-foot shipping container into a science lab without consulting OFEO
during the design process. SD 410 requires all facility altering projects to be
managed by, or in consultation with, OFEO to maintain the safety, health, and
welfare of Smithsonian staff and visitors. The contractor completed the lab
according to the statement of work, but once the lab was built, OFEO disapproved
the use of the science lab for safety reasons.

Until recently, STRI had managed facilities services locally. However, during fiscal
year 2012, the Smithsonian moved the oversight and funding of STRI’s facilities



                                          9

SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL



service function to OFEO’s headquarters office located in Washington, D.C. This unit
now oversees the funding, management, and execution over capital improvements
and maintenance at STRI. STRI began this science lab construction project during
this transition. Because STRI staff did not believe the project was a facility
alteration, they did not initially involve OFEO in the construction of the lab.

Although there was a compelling urgency to have this lab completed by March 7,
2012, STRI had been unable to use the lab for more than a year because OFEO had
not approved the lab’s use. STRI management informed us that the work was
finally completed in May 2013 with the assistance of OFEO. The project’s initial cost
was approximately $10,000, but according to management, the additional work
cost approximately $12,000 an increase of 120 percent over the initial cost.

Custody of Property

During fiscal year 2010, STRI’s procurement manager authorized the purchase of
approximately $10,000 of pine wood from buildings that had been disassembled on
Gamboa. STRI purchased the wood to use for repairs on other buildings. In
addition, the Director of STRI informed us that he also purchased a portion of the
wood from the disassembled buildings and stored it in the same building as STRI’s
wood, a Smithsonian property asset.

According to the purchase order for this transaction, STRI purchased approximately
15,000 square feet of pine wood, and STRI staff took an initial inventory of this
wood. During our visit, STRI officials could not identify a custodian for this wood.

SD 315 defines property control as the proper care, custody, protection,
maintenance of accurate records, and assignment of all personal property. Because
STRI management could not identify a custodian for its purchased wood, they could
not assure that SD 315 was being followed with regards to proper care, custody,
protection, and assignment of all personal property.




                                         10

SMITHSONIAN INSTITUTION                              OFFICE OF THE INSPECTOR GENERAL




The non-routine nature of this purchase contributed to STRI not assigning
responsibility for its custody. STRI increases the risk of undetected loss or theft of
its wood by not assigning responsibility for it to an employee. In addition, STRI
risks the misappropriation of its wood by storing both sets of wood in the same
building. Finally, STRI should not be providing storage space for a third party.

Recommendations

Facility construction and improvement projects should support a safe environment
for research studies; therefore, we recommend that the Director of STRI:

   9. Ensure that future construction and improvement projects contain the
      necessary documentation indicating OFEO’s involvement in the beginning of
      the design stage, as required by SD 410.

To ensure proper custody and accountability over purchased property, we
recommend that the Director of STRI:

  10. Assign responsibility for the control and maintenance of accurate inventory
      records for STRI’s pine wood and any future purchases, as required by SD
      315. In addition, have the assigned custodian determine what the market
      cost would have been for the period the private property was stored.




                                          11

SMITHSONIAN INSTITUTION 	                            OFFICE OF THE INSPECTOR GENERAL



  11. Ensure that STRI facilities only house property intended for official use by the
      Smithsonian.

STRI Relies on Consultants for Two Key Positions

Currently, the Director of Advancement and the Director of Finance and
Administration are outside consultants rather than full-time Smithsonian
employees. The Director of Advancement position is important because that
department is responsible for fundraising. STRI has placed a renewed emphasis on
fundraising to achieve its fiscal year 2013 priorities and assist the Smithsonian in its
capital campaign.

The Director of Finance and Administration position is also important because the
department oversees critical areas such as procurement, accounting, finance,
human resources, and information technology functions, all of which support the
rest of STRI’s operations.

Based on our conversations with STRI management, it is our opinion that both
positions were being filled by consultants because:

   •	 The positions are difficult to fill due to STRI’s Panamanian location; and

   •	 STRI management has not clearly defined the needs and requirements for
      these full-time positions.

In the specific case of the Director of Advancement, STRI management hired the
consultant to produce a branding strategy, but later determined that they also
needed the consultant to develop and temporarily lead an advancement department
so the branding strategy would be successful.

For the Director of Finance and Administration, STRI is using a consultant who was
recommended by a private donor to fill the role.

We question management’s decision to fill these two positions long-term with
consultants rather than full-time employees because of the importance of the
offices they lead. These two directors are limited in their ability to lead offices
because, as outside consultants, they cannot perform inherently government
functions, per Federal Acquisition Regulation guidance. In addition, according to
Smithsonian policy, they are not permitted to supervise employees.

According to the Office of Personnel Management, succession planning is critical to
mission success and creates an effective process for recognizing, developing, and
retaining top leadership talent. We understand the challenges that staffing these
positions in Panama with full-time employees entails. However, the use of
consultants in key positions increases the risk of loss of continuity of business
operations and management stability.



                                          12

SMITHSONIAN INSTITUTION                          OFFICE OF THE INSPECTOR GENERAL



Recommendation

To ensure a more stable and consistent management structure, we recommend
that the Director of STRI:

  12. Develop and implement a written succession plan to fill the Director of
      Advancement and the Director of Finance and Administration positions with
      full-time Smithsonian employees.




                                       13

SMITHSONIAN INSTITUTION                            OFFICE OF THE INSPECTOR GENERAL


                                                                       APPENDIX A

OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of the audit was to evaluate high-risk areas of STRI’s financial
management operations. These areas included cash operations, accounts receivable
transactions, and procurement activities.

To accomplish our objective, we reviewed Smithsonian policies and procedures for
internal controls, contracting, procurement, property management, design,
construction, and accounting. We also assessed the internal controls over the
Enterprise Resource Planning Financial System, which is the Smithsonian’s general
ledger, and the STRI POS system, which details STRI’s accounts receivable.
Because of transaction errors made by STRI staff, we did not rely on the data from
these systems. As a result, we developed findings and recommendations to ensure
the data’s reliability.

We met with the Office of the Comptroller, the Office of Facilities Engineering and
Operations, the Office of Advancement, the Office of the Chief Information Officer,
and the Office of Contracting to discuss STRI’s financial management operations.

We conducted site visits in Panama at Tupper, Barro Colorado Island, Bocas del
Toro, Naos, Culebra, and Gamboa facilities to visually inspect selected
procurements and to conduct walkthroughs and verify controls over cash and
accounts receivable.

Our audit assessed the bank account reconciliation process for all three of STRI’s
bank accounts. We reviewed all monthly reconciliations of STRI’s three bank
accounts for fiscal year 2012. In addition, we evaluated the internal controls over
cash processing, cash receipts from site activities, and cash security.

We also assessed the internal controls over updating payroll records and processing
payroll payments. We tested 100 percent, approximately 350, of the Panamanian
employee files to ensure that all of STRI payroll payments were for legitimate
employees.

To evaluate the accuracy of the accounts receivable data, we reviewed the accounts
receivable reconciliation as of the end of fiscal year 2012. To determine that
appropriate accounts receivable setup controls were in place, we interviewed STRI
accounting and visitor services staff and tested a judgmentally selected sample of
40 high-balance, delinquent, and unusual records. We also assessed STRI’s policies
and procedures for extending credit to scientists and researchers, monitoring
accounts, collecting delinquent balances, and writing off uncollectible accounts.

To evaluate the controls over procurement and the appropriateness of goods and
services purchased, we interviewed STRI accounting and procurement staff. We
also selected a judgmental sample of 51 purchases that included all purchase
orders that were more than $50,000, primarily made in fiscal year 2012. In

                                         A-1 

SMITHSONIAN INSTITUTION                           OFFICE OF THE INSPECTOR GENERAL




addition, we included some unusual procurements in the sample from other years,
regardless of dollar amount.

Because we selected a judgmental sample for our review of accounts receivable and
procurements, we cannot project the results of our review to STRI’s universe of
accounts receivable and procurements.

We conducted this performance audit in Washington, D.C. and the Republic of
Panama, from October 2012 through March 2013, in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe
that the evidence we obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                        A-2 

SMITHSONIAN INSTITUTION          OFFICE OF THE INSPECTOR GENERAL


                                                   APPENDIX B 


MANAGEMENT’S RESPONSE 





                          B-1

SMITHSONIAN INSTITUTION             OFFICE OF THE INSPECTOR GENERAL


                                                      APPENDIX B

MANAGEMENT’S RESPONSE (Continued)




                             B-2

SMITHSONIAN INSTITUTION             OFFICE OF THE INSPECTOR GENERAL


                                                      APPENDIX B

MANAGEMENT’S RESPONSE (Continued)




                             B-3

SMITHSONIAN INSTITUTION             OFFICE OF THE INSPECTOR GENERAL


                                                      APPENDIX B

MANAGEMENT’S RESPONSE (Continued)




                             B-4

SMITHSONIAN INSTITUTION             OFFICE OF THE INSPECTOR GENERAL


                                                      APPENDIX B

MANAGEMENT’S RESPONSE (Continued)




                             B-5

SMITHSONIAN INSTITUTION             OFFICE OF THE INSPECTOR GENERAL




                                                      APPENDIX B

MANAGEMENT’S RESPONSE (Continued)




                             B-6

SMITHSONIAN INSTITUTION                    OFFICE OF THE INSPECTOR GENERAL


                                                            APPENDIX C

MAJOR CONTRIBUTORS TO THIS REPORT

Brian Lowe, Supervisory Auditor
Joseph Benham, Auditor-in-Charge
Kayla Norwood, Auditor
Elsy Woodill, Auditor




                                   C-1 

